Semiannual Report to Congress




   October 1, 2009-March 31, 2010
OIG VISION
“We are agents of positive change striving for continuous
improvement in our agency’s management and program operations.”



NRC-OIG MISSION
NRC-OIG’s mission is to (1) independently and objectively conduct
and supervise audits and investigations relating to NRC’s programs and
operations; (2) prevent and detect fraud, waste, and abuse,
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover photo: Pilgrim Nuclear Power Station near
Plymouth MA. (photo courtesy of Entergy Nuclear
Generation Co.)
A Message From
The Inspector General
I am pleased to present this Semiannual Report to Congress on the activities and
accomplishments of the Nuclear Regulatory Commission (NRC) Office of the
Inspector General (OIG) from October 1, 2009, to March 31, 2010.

Our work reflects the legislative mandate of the Inspector General Act, which
is to identify and prevent fraud, waste, and abuse through the conduct of audits
and investigations relating to NRC programs and operations. The audits and investigations highlighted
in this report demonstrate our commitment to fulfilling this mission. As the Nation embarks upon a
renewed interest in nuclear power, my office will continue to work with NRC staff to promote
efficiency and effectiveness in the administration of NRC programs.

During this reporting period, the NRC OIG continued its focus on critical agency operations to include
quality assurance planning for new reactors, the physical security inspection program for Category I
fuel cycle facilities, and the NRC lessons learned program. Working with the NRC to identify potential
shortcomings early on will afford the agency the opportunity to take any necessary corrective action.

During this semiannual reporting period, we issued 11 program audit reports and analyzed one
contract audit report. As a result of this work, OIG made a number of recommendations to improve
the effective and efficient operation of NRC’s safety, security, and corporate management programs.
OIG also opened 19 investigations, and completed 17 cases. Eight of the open cases were referred to the
Department of Justice, and 20 allegations were referred to NRC management for action.

The NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs and
operations, and our audits, investigations, and other activities highlighted in this report demonstrate
this ongoing commitment. Those efforts were recently recognized with the granting of two Awards for
Excellence by the Council of the Inspectors General on Integrity and Efficiency to an audit team and
a senior special agent. I commend their noteworthy achievements in carrying out the mission of the
Inspector General.

My office is dedicated to maintaining the highest possible standards of professionalism and quality in
its audits and investigations. I would like to acknowledge our auditors, investigators, and support staff
for their superior work and commitment to the mission of our office.

Finally, NRC OIG’s success would not be possible without the collaborative efforts between my staff
and agency managers to address OIG findings and to implement the corrective actions recommended
by my office. I thank them for their dedication and support, and I look forward to their continued
cooperation as we work together to ensure the integrity of agency operations.



Hubert T. Bell
Inspector General



                                                                        October 1, 2009-March 31, 2010 | i
                                             The Cerenkov Effect. Photo courtesy Ohio State University


ii | NRC OIG Semiannual Report to Congress
Contents
   Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  v
   Overview of the NRC and the OIG  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
   	     NRC’s Mission  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
   	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2
   		          Inspector General History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2
   		          OIG Mission and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
   OIG Programs and Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
   	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
   	     Investigative Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
   	     General Counsel Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
   		          Regulatory Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  6
   	     OIG Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10
   		          Support of the Inspector General Community in Training  .  .  .  .  .  . 10
   	     Other Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10
   		          NRC OIG Receives CIGIE Awards for Excellence  .  .  .  .  .  .  .  .  .  .  . 10
   Management and Performance Challenges  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
   Audits 	 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14
   	     Audit Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14
   	     Audits in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
   Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
   	     Investigative Case Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
   Summary of OIG Accomplishments .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 38
   	     Investigative Statistics  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 38
   	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40
   Audit Resolution Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42
   Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
   Reporting Requirements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46




                                                                                              October 1, 2009-March 31, 2010 | iii
  Pilgrim Nuclear Power Station, located near Plymouth Mass. Photo courtesy of Entergy Nuclear Generation Co.


iv | NRC OIG Semiannual Report to Congress
Highlights
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
• 	 Social engineering is the practice of obtaining confidential information
    through manipulation of legitimate users. Social engineers will commonly
    use the telephone or Internet to trick a person into revealing sensitive
    information or getting them to do something that is against typical
    policies, exploiting the natural tendency of individuals to trust others.
    The evaluation objective was to assess the effectiveness of agency security
    policies and control measures protecting sensitive information technology
    systems against a social engineering attack.

• 	 The Atomic Energy Act of 1954, as amended, requires all NRC employees
    to have a security clearance, but allows employees to begin working for
    NRC prior to obtaining their clearance — provided the Commission
    determines that such employment is in the national interest and the
    employee does not have access to classified information. The NRC
    personnel security clearance program strives to implement measures to
    ensure that agency staff can be trusted to work with and protect classified
    information and to prevent the hiring of employees who might be untrust-
    worthy or unsuitable for Federal employment. The audit objective was to
    determine whether (1) NRC is in compliance with external and internal
    personnel security clearance requirements, and (2) NRC’s personnel
    security clearance program is efficiently managed.

• 	 The Chief Financial Officers Act of 1990, as amended, requires the
    Inspector General or an independent external auditor, as determined by
    the Inspector General, to annually audit NRC’s financial statements to
    determine whether the agency’s financial statements are free of material
    misstatement. An independent public accounting firm conducted the audit
    with OIG oversight.

• 	 The Federal Information Security Management Act (FISMA) of 2002
    was enacted on December 17, 2002. FISMA outlines the information
    security management requirements for agencies, which include an annual
    independent evaluation of an agency’s information security program and
    practices to determine their effectiveness. The objective of this review was
    to perform an independent evaluation of NRC’s implementation of FISMA
    for fiscal year (FY) 2009.


                                                                    October 1, 2009-March 31, 2010 | v
                   • 	 In August 2006, the agency issued Management Directive (MD) 6.8,
                       Lessons Learned Program, to establish the formal and structured process
                       needed to manage corrective actions for significant agencywide lessons
                       learned. This directive establishes the process for screening, evaluating, and
                       implementing potential agencywide lessons learned. The audit objective
                       was to determine whether NRC’s agencywide Lessons Learned Program
                       meets its intended purpose to ensure that knowledge gained from signifi-
                       cant lessons learned is retained and disseminated in a manner that will
                       maximize its benefit and usefulness to the staff.

                   • 	 NRC regulates the design, siting, construction, and operation of nuclear
                       power plants. Title 10 Code of Federal Regulations Part 52 (Part 52)
                       establishes the process to apply for a combined license, which, if approved
                       by the NRC, allows the applicant to construct and operate a nuclear power
                       plant. Under Part 52, each combined license applicant is required to submit
                       a final safety analysis report that describes the facility and presents a safety
                       analysis of the facility as a whole. This report must include a description of
                       the applicant’s quality assurance program to be applied to the design, fabri-
                       cation, construction, and testing of the structures, systems, and compo-
                       nents of the facility. The Office of New Reactors is responsible for reviewing
                       combined license applications. The audit objective was to determine the
                       extent to which NRC provides oversight of applicant and licensee new
                       nuclear power plant quality assurance programs.

                   • 	 NRC oversees security programs at facilities that manufacture fuel for
                       nuclear reactors. These fuel cycle facilities use “special nuclear materials” in
                       the manufacturing process. NRC classifies special nuclear materials
                       and the facilities that possess them into three categories based upon the
                       materials’ potential for use in nuclear weapons, or “strategic significance.”
                       The audit objective was to assess the effectiveness of the NRC’s physical
                       security inspection program over the protection and control of special
                       nuclear material at Category I fuel cycle facilities, which are considered
                       the most strategically significant.




vi | NRC OIG Semiannual Report to Congress
INVESTIGATIONS
• 	 OIG conducted an investigation based on an allegation from a former
    NRC employee concerning the appointment of an individual to serve
    as the Patients’ Right Advocate to NRC’s Advisory Committee on the
    Medical Uses of Isotopes. The alleger asserted that NRC staff forwarded
    the individual’s name to the Commission for approval without conveying
    certain information that would have demonstrated that the individual was
    not an appropriate choice for the Patients’ Right Advocate position.

• 	 OIG conducted an investigation into an attempted network intrusion
    based on a notification from the NRC Computer Security Office that a
    user uploaded password cracking software onto the NRC Agencywide
    Documents Access Management System (ADAMS) Citrix server.

• 	 OIG conducted an investigation into a spear phishing attack in which
    17 NRC computer users were targeted. The e-mail contained a link to a
    Web site that initiated the download of the malicious software. NRC users
    launched the link and downloaded the malicious software.

• 	 OIG completed an investigation concerning a former licensee employee’s
    harassment and intimidation (H&I) complaint against the individual’s
    former employer. The individual raised the concern to NRC’s Office of
    Investigations (OI), which closed the investigation after the individual
    reached a settlement with the former employer. The alleger maintained that
    OI should not have closed the case, but should have continued its investi-
    gation into the H&I complaint against the licensee company.

• 	 OIG conducted an investigation involving six separate allegations
    concerning NRC’s oversight of Nuclear Fuel Services, Inc. (NFS), an
    NRC licensee that manufactures and processes nuclear reactor fuel for
    commercial and military purposes. Three of the allegations challenged
    whether NRC followed its own rules and policies with regard to a license
    amendment approval, provision of information to the public, and handling
    of an allegation against a senior NFS official. The other three allegations
    addressed whether NRC influenced a Department of Health and Human
    Services decision that the NFS facility was not a significant health hazard,
    whether an NRC inspector assigned to NFS was transferred for pursuing
    his assignment too rigorously, and whether NRC failed to enforce a
    confirmatory order concerning NFS.




                                                                 October 1, 2009-March 31, 2010 | vii
                                               Fuel rod assembly.


viii | NRC OIG Semiannual Report to Congress
Overview of the NRC and the OIG
NRC’S MISSION
NRC was formed in 1975, in accordance with the Energy Reorganization Act
of 1974, to regulate the various commercial and institutional uses of nuclear
materials. The agency succeeded the Atomic Energy Commission, which
previously had responsibility for both developing and regulating nuclear
activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source,
and special nuclear materials to ensure adequate
protection of public health and safety, promote the
common defense and security, and protect the
environment. NRC’s regulatory mission covers three
main areas:

• 	 Reactors - Commercial reactors that generate
    electric power and research and test reactors
    used for research, testing, and training.

• 	 Materials - Uses of nuclear materials in medical,
    industrial, and academic settings and facilities
    that produce nuclear fuel.

• 	 Waste - Transportation, storage, and disposal of nuclear materials and
    waste, and decommissioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three
principal regulatory functions: (1) establish standards and regulations, (2)
issue licenses for nuclear facilities and users of nuclear materials, and (3)
inspect facilities and users of nuclear materials to ensure compliance with the
requirements. These regulatory functions relate both to nuclear power plants
and other uses of nuclear materials – like nuclear medicine programs at
hospitals, academic activities at educational institutions, research, and such
industrial applications as gauges and testing equipment.

The NRC maintains a current Web site and a public document room at
NRC headquarters in Rockville, Maryland, and holds public hearings, public
meetings in local areas and at NRC offices, and discussions with individuals
and organizations.




                                                                   October 1, 2009-March 31, 2010 | 1
                   OIG HISTORY, MISSION, AND GOALS
                   Inspector General History
                   In the 1970s, Government scandals, oil shortages, and stories of corrup-
                   tion covered by newspapers, television, and radio stations took a toll on the
                   American public’s faith in its Government. The U.S. Congress knew it had to
                   take action to restore the public’s trust. It had to increase oversight of Federal
                                                                   programs and operations. It had
                                                                   to create a mechanism to evaluate
                                                                   the effectiveness of Government
                                                                   programs. And, it had to provide
                                                                   an independent voice for economy,
                                                                   efficiency, and effectiveness within
                                                                   the Federal Government that
                                                                   would earn and maintain the trust
                                                                   of the American people.

                                                                    In response, Congress passed the
                                                                    landmark legislation known as the
                                                                    Inspector General Act (IG Act),
Inspector General Hubert T. Bell presents a plaque to former        which President Jimmy Carter
Chairman Dale E. Klein in appreciation of his support to the        signed into law in 1978. The IG Act
mission of the Office of the Inspector General. Pictured left to
right are Joseph A. McMillan, Assistant Inspector General for
                                                                    created independent Inspectors
Investigations; Hubert T. Bell; Dale E. Klein; David C. Lee, Deputy General, who would protect the
Inspector General; and Steven E. Zane, Deputy Assistant Inspector   integrity of Government; improve
General for Audits.                                                 program efficiency and effective-
                                                                    ness; prevent and detect fraud,
                      waste, and abuse in Federal agencies; and keep agency heads, Congress, and
                      the American people fully and currently informed of the findings of IG work.

                   Today, the IG concept is a proven success. The IGs continue to deliver
                   significant benefits to our Nation. Thanks to IG audits and investigations,
                   billions of dollars have been returned to the Federal Government or have been
                   better spent based on recommendations identified through those audits and
                   investigations. IG investigations have also contributed to the prosecution of
                   thousands of wrongdoers. In addition, the IG concepts of good governance,
                   accountability, and monetary recovery encourages foreign governments to seek
                   advice from IGs, with the goal of replicating the basic IG principles in their
                   own governments.




2 | NRC OIG Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in
accordance with the 1988 amendment to the IG Act. NRC OIG’s mission
is to (1) independently and objectively conduct and supervise audits and
investigations relating to NRC programs and operations; (2) prevent and
detect fraud, waste, and abuse; and (3) promote economy, efficiency, and
effectiveness in NRC programs and operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan that includes
the major challenges and critical risk areas facing NRC.

The plan identifies OIG’s priorities and establishes a shared set of
expectations regarding the goals OIG expects to achieve and the strategies
that will be employed to do so. OIG’s Strategic Plan features three goals, which
generally align with NRC’s mission and goals:

1.	Strengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	 Enhance NRC’s efforts to increase security in response to an evolving
    threat environment.

3.	 Increase the economy, efficiency, and effectiveness with which NRC
    manages and exercises stewardship over its resources.




1
    OIG’s current Strategic Plan covers the period FY 2008 through FY 2013.




                                                                              October 1, 2009-March 31, 2010 | 3
OIG Programs and Activities
                   Audit Program
                   The OIG Audit Program focuses on management and financial operations;
                   economy and efficiency with which an organization, program, or function is
                   managed; and whether the programs achieve intended results. OIG auditors
                   assess the degree to which an organization complies with laws, regulations, and
                   internal policies in carrying out programs, and they test program effectiveness
                   as well as the accuracy and reliability of financial statements. The overall objec-
                   tive of an audit is to identify ways to enhance agency operations and promote
                   greater economy and efficiency. Audits comprise four phases:

                   • 	 Survey phase–An initial phase of the audit process is used to gather
                       information, without detailed verification, on the agency’s organization,
                       programs, activities, and functions. An assessment of vulnerable areas
                       determines whether further review is needed.

                   • 	 Verification phase–Detailed information is obtained to verify findings and
                       support conclusions and recommendations.

                   • 	 Reporting phase–The auditors present the information, findings, conclu-
                       sions, and recommendations that are supported by the evidence gathered
                       during the survey and verification phases. Exit conferences are held with
                       management officials to obtain their views on issues in the draft audit
                       report. Comments from the exit conferences are presented in the published
                       audit report, as appropriate. Formal written comments are included in
                       their entirety as an appendix in the published audit report.

                   • 	 Resolution phase–Positive change results from the resolution process
                       in which management takes action to improve operations based on the
                       recommendations in the published audit report. Management actions
                       are monitored until final action is taken on all recommendations. When
                       management and OIG cannot agree on the actions needed to correct a
                       problem identified in an audit report, the issue can be taken to the NRC
                       Chairman for resolution.

                   Each September, OIG issues an Annual Plan that summarizes the audits
                   planned for the coming fiscal year. Unanticipated high priority issues may arise
                   that generate audits not listed in the Annual Plan. OIG audit staff continually
                   monitor specific issues areas to strengthen OIG’s internal coordination and
                   overall planning process. Under the OIG Issue Area Monitor (IAM) program,
                   staff designated as IAMs are assigned responsibility for keeping abreast of




4 | NRC OIG Semiannual Report to Congress
major agency programs and activities. The broad IAM areas address nuclear
reactors, nuclear materials, nuclear waste, international programs, security,
information management, and financial management and administrative
programs.

INVESTIGATIVE PROGRAM
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to
NRC programs and activities, investigating misconduct by NRC employees,
interfacing with the Department of Justice on OIG-related criminal matters,
and coordinating investigations and other OIG initiatives with Federal, State,
and local investigative agencies and other OIGs. Investigations may be initiated
as a result of allegations or referrals from private citizens; licensee employees;
NRC employees; Congress; other Federal, State, and local law enforcement
agencies; OIG audits; the OIG Hotline; and IG initiatives directed at areas
bearing a high potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention on investi-
gations of alleged conduct by NRC staff that could adversely impact matters
related to health and safety. These investigations may address allegations of:

• 	 Misconduct by high-ranking NRC officials and other NRC officials, such
    as managers and inspectors, whose positions directly impact public health
    and safety.

• 	 Failure by NRC management to ensure that health and safety matters are
    appropriately addressed.

• 	 Failure by NRC to appropriately transact nuclear regulation publicly and
    candidly and to openly seek and consider the public’s input during the
    regulatory process.

• 	 Conflicts of interest involving NRC employees and NRC contractors and
    licensees, including such matters as promises of future employment for
    favorable or inappropriate treatment and the acceptance of gratuities.

• 	 Fraud in the NRC procurement program involving contractors violating
    Government contracting laws and rules.




                                                                    October 1, 2009-March 31, 2010 | 5
                   OIG has also implemented a series of proactive initiatives designed to identify
                   specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A
                   primary focus is electronic-related fraud in the business environment. OIG
                   is committed to improving the security of this constantly changing electronic
                   business environment by investigating unauthorized intrusions and computer-
                   related fraud, and by conducting computer forensic examinations. Other proac-
                   tive initiatives focus on determining instances of procurement fraud, theft of
                   property, Government credit card abuse, and fraud in Federal programs.



                   GENERAL COUNSEL ACTIVITIES
                   Regulatory Review
                   Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG
                   reviews existing and proposed legislation, regulations, policy, and imple-
                   menting Management Directives (MD), and makes recommendations to the
                   agency concerning their impact on the economy and efficiency of agency
                   programs and operations.

                   Regulatory review is intended to provide assistance and guidance to the
                   agency prior to the concurrence process so as to avoid formal implementa-
                   tion of potentially flawed documents. The OIG does not concur or object to
                   the agency actions reflected in the regulatory documents, but rather offers
                   comments and requests responsive action within specified timeframes.

                   Comments provided in regulatory review reflect an objective analysis of the
                   language of proposed agency statutes, directives, regulations, and policies
                   resulting from OIG insights from audits, investigations, and historical data and
                   experience with agency programs. OIG review is structured so as to identify
                   vulnerabilities and offer additional or alternative choices.

                   From October 1, 2009, through March 31, 2010, OIG reviewed more than 320
                   agency documents, including approximately 220 Commission papers (SECYs)
                   and Staff Requirements Memoranda, and 100 Federal Register Notices, regula-
                   tory actions, and statutes.

                   To effectively track the agency’s response to OIG regulatory review, comments
                   include a request for written replies within 90 days, with either a substantive
                   reply or status of issues raised by OIG.




6 | NRC OIG Semiannual Report to Congress
During this reporting period, the OIG also commented on more than 11 draft
Management Directives on technical issues, agency communications, program
organization and personnel guidance. In addition, OIG provided substantive
observations on a Commission paper related to the Open Government Initia-
tive. Feedback and suggestions were also provided on the agency’s No Fear Act
training. These are summarized below. In addition, the agency provided respon-
sive comments to nine OIG comments and for a commentary issued earlier.

Management Directives Related to Agency Communications

MD 2.3, Telecommunications, establishes telecommunications policies and
procedures applicable to all facilities, services, and equipment primarily asso-
ciated with the transfer of information contained within the agency. OIG
comments concerned alignment of the direction in this reference with guid-
ance in MD 12.1, “NRC Facility Security Program,” so as to ensure compliance
with Department of Justice guidance concerning the IG’s role in approving the
use of devices for monitoring, recording, or intercepting conversations.

MD 3.16, NRC Announcement Program, is a new directive intended to
formalize the process and procedures for making agencywide announcements.
OIG comments noted the need to identify the position responsible for assuring
sensitive information is not released in announcements and for consistency in
use of terminology within the directive.

MD 3.57, Correspondence Management, is intended to aid in preparing and
handling correspondence in paper and electronic environments, including the
use of e-mail and the Agencywide Documents Access and Management System
(ADAMS). The OIG noted that as an office reporting directly to the Chairman,
it should be included as an exception to the directive.

Management Directives Related to Agency Organization

MD 9.7, Organization and Functions, Office of the General Counsel, generally
describes the legal program within the agency. OIG comments suggested that
it would be helpful to include more comprehensive information on the Office
of the General Counsel (OGC) relationship with Regional Counsels, and to
urge that legal advice on acquisition matters be extended further than “as
requested.” OGC responded with additional direction on the relationship with
Regional Counsels, and additional OGC involvement in procurement matters,
specifically Organizational Conflict of Interest and 10 CFR Part 11 clearances.




                                                                  October 1, 2009-March 31, 2010 | 7
                   MD 9.17, Organization and Functions, Office of the Executive Director for
                   Operations, (EDO), adequately described that office. OIG commented that it
                   would be helpful if the EDO responsibilities in the directive included those
                   related to audit recommendations as stated in MD 6.1, Internal Management
                   Resolution of Audit Recommendations. In addition, inclusion of Reorganiza-
                   tion Plan No. 1, “Internal Commission Procedures,” of 1980 in the references
                   section of the MD was recommended.

                   MD 9.24, Organization and Functions, Office of Small Business and Civil Rights
                   (SBCR), was well constructed, but lacked specificity in 10 identified areas,
                   which were identified in the OIG comment. These items included SBCR’s
                   responsibility for the Equal Employment Opportunity counselors program and
                   its role in the Commission briefing, grants award program, and recruitment.
                   Additionally, clarification was suggested for several items, including position
                   responsibilities and the organization chart.

                   Management Directives and Actions Related to Agency Personnel Processes

                   MD 10.11, Visiting Fellows Program, provides direction to implement
                   the agency policy to supplement NRC’s expertise in science, medicine,
                   and engineering by limited employment of visiting professionals. The OIG
                   suggested additional detail in the directive regarding employment benefits
                   available to the fellows during their tenure at NRC.

                   MD 10. 72, Awards and Recognition, comprehensively described the awards
                   program, but omitted reference to OIG staff. After discussion with the agency,
                   directions applicable to OIG personnel that appeared in the previous version of
                   the MD were added back into the directive.

                   MD 10.51, Recruitment, Relocation and Retention Incentives, was also complete
                   for agency personnel, but omitted reference to OIG staff. In this case also, after
                   discussion with agency staff, OIG personnel actions were included in the direc-
                   tive.

                   MD 10.38, Position Management, needed revision to include OIG personnel
                   management matters, which was accomplished after discussion with the agency.

                   The agency also created an agencywide training video for employees on the
                   No Fear Act. OIG was asked to review and comment on contained proposed
                   scenarios and announcement language. OIG provided technical and editorial
                   corrections, which were adopted by the agency.




8 | NRC OIG Semiannual Report to Congress
Comments Related to Technical Issues

Draft final rule, 10 CFR 51.22, Criterion for Categorical Exclusion:
Identification of Licensing and Regulatory Actions Eligible for Categorical
Exclusion or Otherwise Not Requiring Environmental Review. OIG expressed
reservations regarding an aspect of the draft rule, which would have exempted
code cases applicable to the Boiler and Pressure Vessel Code, Section II,
“Materials Review.” This would have potentially allowed exclusion from
environmental review certain materials which, once introduced into the
reactor system, could become environmentally harmful. The agency agreed
with these comments and revised the draft rule to address these concerns.

Draft amendments to 10 CFR Part 40, Domestic Licensing of Source Material –
Amendments/Integrated Safety Analysis. The draft rule proposed adding a new
section H to Part 40, which would have required uranium conversion facilities
to meet new safety standards for chemical and radiological hazards similar to
those in 10 CFR Part 70. OIG comments questioned the basis for the
amendments and the estimated cost for compliance with the changes.
Meetings with cognizant agency officials clarified the derivative authority
conveyed by the Atomic Energy Act and further that the cost estimates were
related to current costs and not changed costs; as a result, OIG concerns were
satisfied without further changes to the draft.

Draft MD 8.13, Reactor Oversight Process. OIG related a concern regarding the
Handbook section on “Significance of Indicators and Findings,” because
it omitted the definition of safety significance of findings and performance
indicators in terms of colors (Red, Yellow, White, and Green). This basic
program information is considered essential, and was actually included as
reference material in other sections of the MD. The agency agreed with this
comment and revised the draft accordingly.




                                                                 October 1, 2009-March 31, 2010 | 9
                  OIG ACTIVITIES
                  Support of the Inspector General Community in Training
                  The OIG General Counsel, Maryann Grodin, supported the Inspector General
                  community in training and presentations. Ms. Grodin served as a guest
                  speaker for the Naval Facilities Command Inspector General Conference.
                  During that conference, the OIG General Counsel made a presentation to
                  more than 40 IG auditors, attorneys, and investigators from worldwide field
                  offices. Ms. Grodin’s presentation, titled, “Fraud and Reform,” covered two
                  matters of significance to the IG community: the Supreme Court decision in
                  Allison Engine Co. v. U.S. ex rel Sanders, No. 07-214, and the Fraud Enforce-
                  ment and Recovery Act of 2009, Public Law 111-21. During the presentation,
                  Ms. Grodin related statutory and regulatory authority and standards applicable
                  to each of the topics, and illustrated each discussion area with examples from
                  practice and evolving case law.

                  OTHER ACTIVITIES
                  NRC OIG Receives CIGIE Awards for Excellence
                  In 2009, the Council of the Inspectors General on Integrity and Efficiency
                  (CIGIE) recognized an OIG audit team and a senior special agent by awarding
                  each the prestigious CIGIE Award for Excellence.

                  • 	 The audit team was recognized for exceptional performance in recom-
                      mending actions to enhance NRC’s oversight of the Agreement State
                      Program. The team consisted of Robert Wild, Senior Management Analyst;
                      Eric Rivera, Senior Auditor; and Rebecca Ryan, Management Analyst.

                  • 	 Senior special agent Veronica Bucci was recognized for exceptional
                      performance in investigating and reporting that a Fortune 500 company
                      submitted 77 false claims to NRC in violation of the False Claims Act.

                  CIGIE Award for Excellence in Audit – Agreement State Audit

                  In accordance with section 274 of the Atomic Energy Act, as amended, NRC’s
                  Agreement State Program may relinquish its authority to regulate certain
                  nuclear material to States. Nuclear material is widely used in the United States
                  and abroad for peaceful purposes. However, the events of September 11,
                  2001, heightened the Nation’s concerns that the loss or theft of nuclear
                  material could lead to malicious use such as in a radiological dispersal
                  device, also known as a dirty bomb.




10 | NRC OIG Semiannual Report to Congress
The States to which NRC relinquishes its
authority must first demonstrate that their regu-
latory programs are adequate to protect public
health and safety and are compatible with NRC’s
program. States that have entered into an agree-
ment assuming this regulatory authority from
NRC are called Agreement States. NRC has
programmatic responsibility to periodically review
Agreement State actions to comply with the
requirements of the Atomic Energy Act. NRC’s
policy is to evaluate Agreement State radiation
                                                      The NRC Agreement States Audit Group receives
control programs using performance indicators         its 2009 CIGIE Award for Excellence. Pictured
to ensure nationwide that public health and safety    left to right are Stephen D. Dingbaum, Assistant
is being adequately protected and that Agree-         Inspector General for Audits; Robert K. Wild,
                                                      Audit Manager; Sherri A. Miotla, Team Leader;
ment State programs are compatible with NRC’s         Eric Rivera, Audit Manager; David C. Lee, Deputy
program.                                              Inspector General; and Hubert T. Bell, Inspector
                                                      General.
Although NRC maintains oversight of the
Agreement States, the audit team identified the following program adequacy
and effectiveness issues:

• 	 NRC does not effectively monitor the Integrated Materials Performance
    Evaluation Program (IMPEP) operational issues. IMPEP is NRC’s mecha-
    nism for periodically reviewing the actions of the Agreement States to
    comply with the requirements of the Atomic Energy Act. Agreement State
    program managers are unaware of several operational issues because there
    is no systematic mechanism for conducting self-assessments and capturing
    lessons learned for IMPEP. Consequently, IMPEP may not be as effective as
    it could be for assessing the adequacy and compatibility of Agreement State
    programs.

• 	 NRC could be challenged to re-exert authority over an Agreement State
    program in the event of an emergency. Under the Atomic Energy Act, NRC
    can temporarily suspend its agreement with a State during an emergency
    situation. However, NRC has not identified all of the information neces-
    sary for re-exerting authority and lacks formal procedural guidance about
    what information is needed about Agreement State programs and materials
    licensees. Without this valuable planning information, NRC could lose
    oversight and awareness of licensees and materials.

• 	 NRC’s communications with and collection of information from
    Agreement States needs improvement. Even though NRC serves as the
    Federal-level presence for materials safety and security under the National
    Materials Program, the agency lacks (1) standardization in communication


                                                                 October 1, 2009-March 31, 2010 | 11
                        procedures, and (2) a standardized data collection process that can be used
                        as a basis for developing a national information sharing tool. As a result,
                        some States may be unaware of important issues, and NRC does not have a
                        full and accurate picture of Agreement State regulatory activities.

                    • 	 Weaknesses exist in NRC’s review of Agreement State event reporting.
                        NRC’s reviews of whether an Agreement State has appropriately reported
                        all events to the Nuclear Material Events Database (NMED) may not be
                        consistently performed. NRC’s IMPEP reviews do not require an analysis
                        of unreported events to determine whether such events are being appro-
                        priately identified for and included in NMED. Consequently, NRC and
                        the public may have an inaccurate accounting of material events in some
                        States, which could also hamper events data trend analysis efforts.

                    The audit team’s work represented a significant contribution to protecting
                    public health and safety by ensuring that NRC’s oversight of Agreement State
                    regulatory programs are adequate to protect public health and safety, and are
                    compatible with NRC’s program.

                    CIGIE Award for Excellence in Investigation – Violation of False Claims Act

                                                 Senior Special Agent (SSA) Veronica Bucci was
                                                 recognized by the CIGIE for work involving an
                                                 allegation that an NRC contractor, Science Applica-
                                                 tions International Corporation (SAIC), a Fortune
                                                 500 scientific, engineering, and technology appli-
                                                 cations company, violated the False Claims Act
                                                 (FCA) and breached two contracts with the NRC.

                                                    OIG’s investigation found that in 1992 and 1999,
                                                    NRC awarded two contracts to SAIC to provide the
Senior Special Agent Veronica O. Bucci receives     agency with technical assistance on the develop-
her 2009 CIGIE Award for Excellence. Pictured       ment of a rule that would allow for the recycling
left to right are Joseph A. McMillan, Assistant     and reuse of slightly radioactive material, primarily
Inspector General for Investigations; Rossana
Raspa, Senior Level Assistant for Investigative
                                                    contaminated metals. In 1992, SAIC was responsible
Operations; Hubert T. Bell, Inspector General;      for assisting NRC in establishing scientific stan-
Senior Special Agent Bucci; and David C. Lee,       dards governing the reuse of such material and was
Deputy Inspector General.                           to present an options paper outlining the possible
                       approaches to rulemaking for the release of these materials. The goal of the 1999
                       contract was to assess regulatory alternatives regarding the release of reusable
                       materials. As part of both contract requirements, SAIC certified to NRC that
                       SAIC had no conflicts of interest; however, during a public meeting, a private
                       citizen reported that SAIC did have conflicts of interest related to this issue.




12 | NRC OIG Semiannual Report to Congress
OIG’s investigation determined that SAIC breached its organizational conflict-
of-interest obligations under both NRC contracts by engaging in relationships
with organizations, including the Association of Radioactive Metal Recyclers,
whose aim was to advocate in favor of recycling and reusing radioactive mate-
rials. By concealing these relationships, SAIC stood to benefit from the rule.
The OIG investigation concluded that SAIC violated the FCA and breached its
contract requirements with NRC by not disclosing these relationships.

Throughout the investigation and subsequent Federal trial, SSA Bucci provided
invaluable assistance and support to the Department of Justice and the NRC’s
Office of the General Counsel, which culminated in a Federal jury finding that
SAIC violated the FCA. The jury awarded the U.S. Government $6.49 million
under the FCA and penalties for 77 false claims and statements that SAIC
submitted to NRC for payment.

Management and Performance Challenges
                 Most Serious Management and Performance Challenges
                      Facing the Nuclear Regulatory Commission *
                               as of September 30, 2009
                               (as identified by the Inspector General)

  Challenge 1	 Protection of nuclear material used for civilian purposes.

  Challenge 2	 Managing information to balance security with openness and accountability.

  Challenge 3	Ability to modify regulatory processes to meet a changing environment, to include
               the licensing of new nuclear facilities.

  Challenge 4	 Oversight of radiological waste.

  Challenge 5	 Implementation of information technology and information security measures.

  Challenge 6	 Administration of all aspects of financial management.

  Challenge 7	 Managing human capital.

  *The most serious management and performance challenges are not ranked in any order
    of importance.

The seven challenges contained in this report are distinct, yet interdependent relative to the
accomplishment of NRC’s mission. For example, the challenge of managing human capital
affects all other management and performance challenges.



                                                                  October 1, 2009-March 31, 2010 | 13
Audits
                  To help the agency improve its effectiveness and efficiency during this period, OIG
                  completed 11 financial and performance audits or evaluations, 7 of which are
                  summarized here that resulted in numerous recommendations to NRC manage-
                  ment. OIG also analyzed one contract audit report.

                  AUDIT SUMMARIES
                  Social Engineering Assessment Report
                  OIG Strategic Goal: Security

                  Social engineering is the practice of obtaining confidential information
                  through manipulation of legitimate users. Social engineers will commonly use
                  the telephone or Internet to trick a person into revealing sensitive information
                  or getting them to do something that is against typical policies, exploiting the
                  natural tendency of individuals to trust others. A contemporary example of a
                  social engineering attack is the use of e-mail attachments that contain mali-
                  cious payloads that, for example, use the victim’s machine to send massive
                  quantities of spam. After earlier malicious e-mails led software vendors to
                  disable automatic execution of attachments, users now have to explicitly acti-
                  vate attachments for this to occur. Many users, however, will automatically
                  click on any attachments they receive, thus allowing the attack to work.

                  OIG sought to assess the effectiveness of agency security policies and control
                  measures protecting sensitive information technology systems against a social
                  engineering attack. A contractor with expertise in this area was selected to
                  perform the assessment, which involved the following techniques:

                  • 	 Reconnaissance to discover publicly available information that may be
                      leveraged to develop materials that may facilitate the social engineering
                      assessment, including scripts, scenarios, samples, and e-mails.

                  • 	 Dumpster/recycle bin diving and workspace walk throughs to deter-
                      mine whether employees and contractors are transporting, storing, and
                      disposing of sensitive information according to defined policies.

                  • 	 Physical access assessment to identify weaknesses in physical access controls
                      that are typically used to protect against unauthorized access to buildings,
                      information technology systems, and sensitive information.

                  • 	 Baiting by deliberately placing removable media, containing malware, outside
                      and around facilities, with the hope that an employee will find the media,
                      connect it to the network, and inadvertently deploy the contained malware.



14 | NRC OIG Semiannual Report to Congress
• 	 Social engineering phone calls attempting to extract sensitive information
    from employees by impersonating trusted figures, including the help desk
    or the security office.

• 	 Phishing e-mails attempting to entice users to divulge sensitive information
    or click on non-NRC links.

Assessment Results:

The assessment, which was performed between August 19, 2009, and
November 6, 2009, demonstrated that NRC had improved its controls since
2006, when a prior OIG social engineering assessment was conducted. The
assessment, however, also revealed areas where NRC can further strengthen
the controls needed to protect against social engineering attacks and made
recommendations to help NRC address specific areas noted for improvement.
Additional information concerning the assessment results cannot be reported
publicly due to the security-related nature of the assessment and results.
(Addresses Management and Performance Challenge #5)

Audit of NRC’s Personnel Security Clearance Program
for Employees
OIG Strategic Goal: Security

Atomic Energy Act of 1954, as amended, requires all NRC employees to have
a security clearance. The NRC personnel security clearance program strives to
implement measures to ensure that agency staff can be trusted to work with and
protect classified information and to prevent the hiring of employees who might
be untrustworthy or unsuitable for Federal employment. At NRC, the Office of
Administration, Division of Facilities and Security, through its Personnel Secu-
rity Branch (PSB) administers the personnel security clearance program.

NRC allows employees to begin working for the agency prior to their clear-
ance — provided the Commission determines that such employment is in the
national interest and the employee does not have access to classified informa-
tion. Today, a significant number of new NRC employees are permitted to
begin work prior to receiving a security clearance, but only after PSB conducts a
review of the individual’s criminal history, credit history and background infor-
mation as reported by the individual; evaluates the results; and determines there
are no factors that may constitute a security risk to the agency. This approval is
referred to as a pre-appointment investigation waiver or a 145b waiver.

After NRC grants an initial approval to begin work (with no access to classi-
fied information), the agency requests a full background investigation from the



                                                                  October 1, 2009-March 31, 2010 | 15
                  Office of Personnel Management (OPM). Once the background investigation
                  is returned to NRC, PSB staff adjudicate the results by reviewing the investiga-
                  tion report. The adjudicative process is an examination of a sufficient period of
                  a person’s life to make a determination to grant or deny a security clearance.

                  The audit objective was to determine whether (1) NRC is in compliance with
                  external and internal personnel security clearance requirements, and (2) NRC’s
                  personnel security clearance program is efficiently managed.

                  Audit Results:

                  NRC is not fully in compliance with established timeliness requirements for
                  processing personnel security clearances. Furthermore, NRC’s personnel
                  security clearance program lacks sufficient management controls and oversight
                  to measure the program’s efficiency and assign accountability for the program’s
                  performance.

                  Timeliness Requirements Not Met

                  The Intelligence Reform and Terrorism Prevention Act of 2004 provides
                  timeliness requirements for processing Federal personnel security clearance
                  investigations. In accordance with the act, agencies (1) should adjudicate most
                  clearance investigation results within 30 days, and (2) initiate a reinvestiga-
                  tion every 5 years for “Q” (top secret) and every 10 years for “L” (secret) clear-
                  ances. Despite these requirements, 62 percent of NRC adjudications during
                  the first three quarters of FY 2009 took longer than 30 days, and OIG identi-
                  fied 161 NRC employees whose reinvestigations were more than 1 year past
                  due. NRC has not met the timeliness requirements because the agency has not

                                             Adjudication Timeliness
                                      October 1, 2008, through June 30, 2009
                                                             N=978
                      400

                      300
                                                       62 percent of adjudications occured
                                                     outside of the 30-day IRTPA requirement
                      200

                      100

                        0
                               0-30       31-60      61-90      91-120     121-150   151-180   181-365
                                                         Days to Complete
                      Source: OIG-generated based on data obtained from OPM.




16 | NRC OIG Semiannual Report to Congress
implemented a procedure to routinely                   Reinvestigations > 1 Year Past Due
monitor and follow up on all case files                        by Clearance Type
to ensure cases are processed timely.                          (As of September 2009)
Additionally, management lacks useful
and reliable reports to track the status
of clearance investigations through                                                     L-Secret
                                                                       43
the various stages of the investigative
process. Delays in completing initial             86                                    L(H)-High
investigations may hinder agency                                                        Public Trust
productivity, while delays in completing
reinvestigations can lead to increased                                32                Q-Top Secret
security risks.

Agency Lacks Personnel Security
                                              Source: OIG-generated based on data obtained from PSB.
Performance Measures

Federal control standards require the establishment and review of perfor-
mance measures and indicators. At the start of this audit, NRC lacked perfor-
mance measures to assess the efficiency of NRC’s personnel security clearance
program. In response to a 2004 OIG audit report recommendation, the
Division of Facilities and Security added a timeliness performance measure
to the FY 2005 Office of Administration Operating Plan for the processing of
personnel security investigations. However, in FY 2006, deeming the timeli-
ness performance measure unattainable, management removed the measure
from the plan. Without performance measures, the agency’s ability to assess
personnel security clearance program efficiency and assign accountability for
the program performance is limited. (Addresses Management and Performance
Challenges #5 and #7)

Results of the Audit of the Nuclear Regulatory
Commission’s Financial Statements for Fiscal Years
2009 and 2008
OIG Strategic Goal: Corporate Management

The Chief Financial Officers Act of 1990, as amended, requires the Inspector
General or an independent external auditor, as determined by the Inspector
General, to annually audit NRC’s financial statements to determine whether
the agency’s financial statements are free of material misstatement. The audit
includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. It also includes assessing the accounting
principles used and significant estimates made by management as well as eval-
uating the overall financial statement presentation.



                                                                     October 1, 2009-March 31, 2010 | 17
                  In addition, the audit evaluates the effectiveness of internal controls over
                  financial reporting and the agency’s compliance with laws and regulations.

                  Audit Results:

                  Financial Statements
                  The auditors expressed an unqualified opinion on the agency’s FY 2009 and
                  2008 financial statements.

                  Internal Controls
                  The auditors expressed an unqualified opinion on the agency’s internal
                  controls.

                  Compliance with Laws and Regulations
                  The auditors found no reportable instances of noncompliance with laws and
                  regulations. (Addresses Management and Performance Challenge #6)

                  Independent Evaluation of NRC’s Implementation of the
                  Federal Information Security Management Act for Fiscal
                  Year 2009
                  OIG Strategic Goal: Security

                  The Federal Information Security Management Act (FISMA) of 2002 was
                  enacted on December 17, 2002. FISMA outlines the information security
                  management requirements for agencies, which include an annual independent
                  evaluation of an agency’s information security program2 and practices to deter-
                  mine their effectiveness. This evaluation must include testing the effectiveness
                  of information security policies, procedures, and practices for a representative
                  subset of the agency’s information systems. FISMA requires the annual evalu-
                  ation to be performed by the agency’s Inspector General or by an independent
                  external auditor as determined by the Inspector General. Office of Manage-
                  ment and Budget (OMB) memorandum M-09-29, FY 2009 Reporting Instruc-
                  tions for the Federal Information Security Management Act and Agency Privacy
                  Management, dated August 20, 2009, requires the agency’s IG to report their
                  responses to OMB’s annual FISMA reporting questions for Inspectors General
                  via an automated collection tool.

                  The objective of this review was to perform an independent evaluation of
                  NRC’s implementation of FISMA for FY 2009.


                  2
                      For the purposes of FISMA, the agency uses the term “information system security program.”




18 | NRC OIG Semiannual Report to Congress
As of the completion of the fieldwork associated with this review, NRC had
22 operational systems that fall under FISMA reporting requirements. Of the
22, 8 were general support systems, and 14 were major applications. In addi-
tion, NRC had three systems operated by a contractor or other organization on
behalf of the agency.

Evaluation Results:

Program Enhancements and Improvements

Over the past 7 years, NRC has continued to make improvements to its infor-
mation system security program and continues to make progress in imple-
menting the recommendations resulting from previous FISMA evaluations. In
2007, the Commission approved the establishment of the Computer Security
Office. The new office reports to the Deputy Executive Director for Corporate
Management and Chief Information Officer and is headed by the Chief Infor-
mation Security Officer. The Chief Information Security Officer plans, directs,
and oversees the implementation of a comprehensive, coordinated, integrated,
and cost-effective NRC information technology security program, consistent
with applicable laws; regulations; Commission, Executive Director for Opera-
tions, and Chief Information Officer direction; management initiatives; and
policies.

The agency has accomplished the following since the FY 2008 FISMA
independent evaluation:

• 	 Completed certification and accreditation of 12 of the agency’s 22 opera-
    tional systems and 1 of the agency’s 3 contractor systems. As of the
    completion of fieldwork for FY 2009, all but one of the operational NRC
    information systems had a current certification and accreditation, and all
    three of the systems used or operated by a contractor or other organization
    on behalf of the agency had a current certification and accreditation.

• 	 Completed or updated security plans for 19 of the agency’s 22 operational
    systems and for all 3 contractor systems.

• 	 Completed annual security control testing for all agency systems and for all
    contractor systems.

• 	 Completed annual contingency plan testing for all agency systems and for
    all contractor systems.

• 	 Issued several new and updated policies related to the protection of
    personally identifiable information (PII) including an updated Computer



                                                                 October 1, 2009-March 31, 2010 | 19
                      Security Incident Response Policy, an updated PII Breach Notification Policy,
                      an updated Computer Security Information Protection Policy, the Laptop
                      Security Policy, and the Computer Security Policy for Encryption of Data at
                      Rest When Outside of Agency Facilities.

                  • 	 Issued the Agencywide Rules of Behavior for Authorized Computer Use. The
                      rules of behavior are provided to NRC computer users as part of the annual
                      computer security awareness course, and apply to all NRC employees,
                      contractors, vendors, and agents (users) who have access to any system
                      operated by the NRC or by a contractor or outside entity on behalf of the
                      NRC.

                  • 	 Developed configuration guidance, configuration standards, and standard
                      system security plans for laptops, as well as a new Laptop Security Policy.

                  • 	 Identified all employees with significant information technology security
                      responsibilities and developed a plan for ensuring those employees receive
                      appropriate role-based training.

                  Program Weaknesses

                  While the agency has made significant improvements in its information system
                  security program and has made progress in implementing the recommenda-
                  tions resulting from previous FISMA evaluations, the independent evalua-
                  tion identified two information system security program weaknesses. One is
                  a repeat finding from the FY 2008 independent evaluation, and the other is a
                  repeat finding from several previous independent evaluations.

                  • 	 The NRC inventory interface information is still inconsistent (repeat
                      finding).

                  • 	 The NRC inventory of major information systems operated by the agency
                      and the identification of the interfaces between each system is still incon-
                      sistent (repeat finding).

                  • 	 The quality of the agency’s plans of action and milestones still needs
                      improvement (repeat finding).

                  (Addresses Management and Performance Challenge #5)




20 | NRC OIG Semiannual Report to Congress
Audit of NRC’s Lessons Learned Program
OIG Strategic Goal: Safety

In 2002, NRC created the Davis-Besse Lessons Learned Task Force to evaluate
the agency’s regulatory processes used during the Davis-Besse event.3 The
Davis-Besse Lessons Learned Task Force recommended, among other things,
that NRC conduct an effectiveness review of the actions taken in response
to past lessons learned reviews. Consequently, the Office of Nuclear Reactor
Regulation (NRR) established the Effectiveness Review Lessons Learned Task
Force. This task force found that some corrective actions implemented prior to
the Davis-Besse event had not been effective. In response, the EDO assigned
the task force to establish a program to institutionalize significant agencywide
lessons learned.

On August 1, 2006, the agency issued MD 6.8, Lessons Learned Program, to
establish the formal and structured process needed to manage corrective actions
for significant agencywide lessons learned. MD 6.8 establishes the process
for screening, evaluating, and implementing potential agencywide lessons
learned. In accordance with this process, a Lessons Learned Program Manager
is responsible for compiling potential lessons learned issues. The Program
Manager then schedules a Lessons Learned Oversight Board4 meeting to discuss
whether the selected issues should be considered as agencywide lessons learned.
The Oversight Board compares the issues to threshold criteria established in
MD 6.8, and only if the criteria are met can an issue be considered an agency-
wide lessons learned. Issues that do not meet the lessons learned criteria may be
addressed by NRC offices through other corrective action mechanisms.

The EDO assigns a lead NRC office to create and implement a corrective action
plan when a lesson learned is identified. Once the lead office implements the
corrective action plan, the Oversight Board determines if that plan was satis-
fied. Upon successful completion of the corrective action plan, the Oversight
Board determines when the lead office conducts an effectiveness review. When
completed, the Oversight Board reviews and makes recommendations if necessary.

The audit objective was to determine whether NRC’s agencywide Lessons
Learned Program meets its intended purpose to ensure that knowledge gained
3
    I n March 2002, plant workers at the Davis-Besse Nuclear Power Station discovered degradation of the
     pressure boundary material of the Davis-Besse Nuclear Power Station reactor pressure vessel head while
     conducting a routine repair. This problem led to a leakage of reactor cooling water, which contains boric
     acid and can damage other areas of the nuclear reactor.
4
     e Oversight Board is composed of deputy office directors from NRR, the Office of New Reactors,
    Th
    the Office of Nuclear Material Safety and Safeguards, the Office of Federal and State Materials and
    Environmental Management Programs, the Office of Nuclear Regulatory Research, the Office of Nuclear
    Security and Incident Response, and a representative from one of the four NRC regions.



                                                                                          October 1, 2009-March 31, 2010 | 21
                  from significant lessons learned is retained and disseminated in a manner that
                  will maximize its benefit and usefulness to the staff.

                  Audit Results:

                  Although NRC has identified significant agencywide lessons learned, agency
                  staff are generally unaware of the program’s lessons and activities.

                  Specifically, staff are unaware of the issues considered for potential agencywide
                  lessons learned, the lessons learned identified, and who has oversight for the
                  program. OIG interviewed 24 NRC office points-of-contact identified by the
                  Office of the Executive Director for Operations and found that 92 percent of the
                  points of contact had limited knowledge of the program. Furthermore, current
                  and former Lessons Learned Project Managers and Oversight Board members
                  were unaware of the status of a database that was developed for the Lessons
                  Learned Program. The database was intended to serve as a means to commu-
                  nicate issues considered by the Oversight Board and the identified agencywide
                  lessons learned that then could be documented and shared with agency staff.
                  Although the database has been ready for use since November 2008, as of June
                  2009, the $342,000 system had not been implemented for agencywide use.

                  The Lessons Learned Program could have been more effectively communicated
                  to staff, and management’s attention to and support for certain aspects of the
                  program has diminished over time. As a result, the program is missing oppor-
                  tunities to identify and inform NRC staff of significant agencywide lessons
                  learned that would improve agency operations. (Addresses All Management and
                  Performance Challenges)

                  Audit of NRC’s Quality Assurance Planning for
                  New Reactors
                  OIG Strategic Goal: Safety

                  NRC regulates the design, siting, construction, and operation of nuclear
                  power plants. Title 10 Code of Federal Regulations (CFR) Part 52 (Part 52)
                  establishes the process to apply for a combined license, which, if approved by
                  the NRC, allows the applicant to construct and operate a nuclear power plant.
                  The Office of New Reactors (NRO) is responsible for reviewing combined
                  license applications.

                  Under Part 52, each combined license applicant is required to submit a final
                  safety analysis report that describes the facility and presents a safety analysis of
                  the facility as a whole. This report must include a description of the applicant’s
                  quality assurance program to be applied to the design, fabrication, construc-
                  tion, and testing of the structures, systems, and components of the facility.


22 | NRC OIG Semiannual Report to Congress
                                                                 Proposed Locations of New Reactors
Part 52 references the quality assur-                                   River Bend*
                                                                        ESBWR - 1 Unit           Grand Gulf*
                                                                                                 ESBWR - 1 Unit             Callaway*
ance program requirements, which                                             WA
                                                                                                                            EPR - 1 Unit
                                                                                                                                                     Fermi
are described in Title 10 CFR Part 50,                                                      MT                                                                                         ME
                                                                                                           ND                                        ESBWR - 1 Unit
                                                                        OR                                                                                                     VT
                                                                                                                       MN                                                           NH      Nine Mile Point*
Appendix B (Appendix B). Appendix B
                                                                                  ID
                                                                                                           SD                      WI                                     NY         MA     EPR - 1 Unit
                                                                                             WY                                                     MI                              CT RI
                                                                                                                                                                                            Bell Bend

applies to all activities affecting safety-                                                                                                                                                 EPR - 1 Unit
                                                                                                                        IA                                          PA
                                                                             NV                            NE                                                                  NJ
                                                                                                                                                         OH             MD
                                                                                       UT                                               IL     IN                              DE


related functions of the facility. NRO                             CA
                                                                                                  CO
                                                                                                            KS                MO                    KY
                                                                                                                                                              WV
                                                                                                                                                                    VA
                                                                                                                                                                                    Calvert Cliffs
                                                                                                                                                                                    EPR - 1 Unit

staff reviews, which include an evalua-
                                                                                                                                                               NC
                                                                                                                                               TN                               North Anna
                                                                                  AZ                              OK                                                            ESBWR - 1 Unit
                                                                                                 NM                          AR                                     SC


tion of quality assurance, are performed
                                                                                                                                                         GA                  Harris
                                                                                                                                    MS          AL                           AP1000 - 2 Units
                                                                                                            TX

in accordance with NUREG-0800, the
                                                                                                                             LA                                          William Lee
                                                                                                                                                                         AP1000 - 2 Units
                                                                                                                                                                   FL

standard review plan.                                                                                                  Bellefonte
                                                                                                                       AP1000 - 2 Units
                                                                                                                                                                      Turkey Point
                                                                                                                                                                      AP1000 - 2 Units
                                                                                       Comanche Peak                   Vogtle                             Levy County
                                                                                       USAPWR - 2 Units                AP1000 - 2 Units                   AP1000 - 2 Units

During the application process, appli-                       Victoria County*   South Texas
                                                             Design/Units - TBA ABWR - 2 Units
                                                                                                   V.C. Summer
                                                                                                   AP1000 - 2 Units

cants often conduct activities associated
with new nuclear power plant construc-              ABWR  AP1000        EPR      ESBWR         USAPWR       Design/Units - TBA

tion, including developing processes that                         *Review Suspended at the Request of the Applicant
                                                                                                                                             Source: NRC Office of New Reactors

will be used during construction, testing,
and operations; establishing programs for areas such as corrective action, secu-
rity, and training; and procuring materials and parts. The applicant must provide
oversight of vendor programs if safety-related parts are procured. Many nuclear
vendors are now foreign-based companies and oversight of these foreign-based
companies can present new challenges, such as overcoming cultural and language
barriers.

The audit objective was to determine the extent to which NRC provides oversight
of applicant and licensee new nuclear power plant quality assurance programs.

Audit Results:

NRO conducts reviews of applicant quality assurance programs for new nuclear
power plant design, construction, and operation, as well as reviews of vendor
quality assurance programs. Given that the interest to build new nuclear power
plants is in its infancy, NRO is appropriately focusing on quality assurance as it
relates to design and procurement activities. OIG has identified areas needing
management attention while NRO continues its ongoing quality assurance
review activities. Specifically:

• 	 Coordination of quality assurance reviews among NRO branches is informal.

• 	 NRC’s quality assurance oversight does not include a review for accurate
    translations.

Coordination of Quality Assurance Reviews Among NRO Branches Is Informal

Sections of the standard review plan specify that the responsible technical reviewer
will coordinate the applicable quality assurance reviews with the NRO’s quality



                                                                                                          October 1, 2009-March 31, 2010 | 23
                  assurance branches. However, coordination of quality assurance reviews among
                  the technical reviewers and the quality assurance branch reviewers, when it
                  occurs, is actually informal communication. Some individual reviewers infor-
                  mally communicate through phone calls and e-mail, usually to address a specific
                  issue rather than to coordinate a quality assurance review. For example, OIG
                  learned that a quality assurance reviewer may ask a technical reviewer to provide
                  assistance with a technical issue, or to participate in a quality assurance audit or
                  inspection. Similarly, a technical reviewer may have a question for the quality
                  assurance branch regarding quality assurance requirements. This interaction is
                  dependent on the initiative of an individual reviewer.

                  Agency expectations concerning quality assurance review coordination are not
                  clearly defined and there is no process in place to ensure that it occurs. Conse-
                  quently, there is no way to verify that the quality assurance review coordination
                  has occurred, nor that all the quality assurance portions of the standard review
                  plan technical chapters have been fully satisfied.

                  NRC’s Quality Assurance Oversight Does Not Include Review for Accurate
                  Translations

                  NRC’s oversight of applicant and licensee quality assurance programs and activi-
                  ties does not include a review for accurate document translations. Given the
                  current industry reliance on foreign vendors and sub-suppliers for the design and
                  manufacture of safety-related components, such as reactor vessels, the accuracy
                  of translated design basis and other documentation, such as technical manuals,
                  becomes more relevant for applicants/licensees and NRC alike. Indeed, OIG
                  discovered one large nuclear vendor with a quality assurance procedure for trans-
                  lation that it uses in-house for foreign language document translation. The vendor
                  does not, however, apply the same quality assurance procedure to its foreign
                  suppliers, and simply requires its suppliers to provide documentation in English,
                  without regard for the translation process.

                  NRC has undertaken some efforts to assess the impacts of the changing nuclear
                  industry on its vendor inspection program but it has not fully assessed the impact
                  of translated document quality on quality assurance oversight. Further, NRC has
                  not assessed how translated documents from foreign providers of safety-related
                  systems might impact the quality of safety-related components supplied to new
                  nuclear power plant applicants and licensees in the United States.

                  Consequently, NRC and its new nuclear power plant applicants and licensees
                  could be relying on inaccurate translations. Furthermore, the accuracy of trans-
                  lated documents used for design, construction, and operation of new nuclear
                  power plants could be called into question. (Addresses Management Challenge #3)




24 | NRC OIG Semiannual Report to Congress
Audit of NRC’s Physical Security Inspection Program for
Category I Fuel Cycle Facilities
OIG Strategic Goal: Security

NRC oversees security programs at facilities that manufacture fuel
for nuclear reactors. These fuel cycle facilities use “special nuclear
materials” in the manufacturing process. NRC classifies special
nuclear materials and the facilities that possess them into three
categories based upon the materials’ potential for use in nuclear
weapons, or “strategic significance.” The three categories are:

• 	 Category I: High strategic significance.

• 	 Category II: Moderate strategic significance.

• 	 Category III: Low strategic significance.

Two fuel cycle facilities in the United States process Category I
materials into nuclear fuel for the Federal Government. The U.S.
                                                                          Armed security officers safe-
Navy, in particular, uses this fuel in nuclear powered ships and
                                                                          guard fuel cycle facilities and are
submarines. There are no Category II fuel cycle facilities operating
                                                                          trained according to standards
in the United States, and Category III facilities are subject to a
                                                                          specified in Federal Government
different NRC physical security inspection regime than Category
                                                                          regulations.
I facilities because these materials present less risk to public safety   Source: Babcock and Wilcox Nuclear
and security.                                                             Operations Group

The main objective of NRC’s oversight program for Category I fuel cycle facili-
ties is to ensure that these facilities operate safely and securely in accordance
with NRC requirements. Since the terrorist attacks of September 11, 2001,
NRC has issued licensees new requirements and guidance to enhance security
at Category I fuel cycle facilities against sabotage and theft of nuclear materials.

The audit objective was to assess the effectiveness of the NRC’s physical secu-
rity inspection program over the protection and control of special nuclear
material at Category I fuel cycle facilities.

Audit Results:

The Office of Nuclear Security and Incident Response (NSIR) fulfills its
responsibility to conduct physical security inspections at Category I fuel cycle
facilities. However, the inspection program faces the following two challenges:

• 	 Need to provide physical security training for supervisors without previous 	
    security experience to enhance management oversight of inspections.



                                                                     October 1, 2009-March 31, 2010 | 25
                      • 	 Inspection guidance has not undergone periodic review to ensure that it
                          aligns with current NRC security guidance and requirements.

                      Security Training Would Enhance Management Oversight

                                      Federal Government internal control guidance recommends
                                      that agencies staff positions with qualified personnel and
                                      provide appropriate training. NRC branch chiefs play an
                                      important role in overseeing inspection activities; however, the
                                      branch chiefs responsible for fuel cycle facility physical secu-
                                      rity inspections are not required to have background experi-
                                      ence or undergo training in this area. NRC opens branch chief
                                      positions to generalists to increase the pool of potential job
                                      candidates, and staff said that branch chiefs can learn through
                                      on-the-job training and that branch chiefs rely on inspectors
                                      for technical expertise. In addition, NRC seeks candidates who
Fuel cycle facility personnel
                                      exhibit leadership and supervisory skills, as well as program-
processing uranium.
                                      matic and regulatory knowledge.
Source: Babcock and Wilcox Nuclear
Operations Group
                                      Without providing job-specific training to branch chiefs, NRC
                      faces increased risk that branch chiefs might not be able to fulfill duties such as
                      training new inspectors and reviewing inspection reports.

                      NRC Has Not Conducted Timely Reviews of Inspection Guidance

                      NRC guidance requires staff to review inspection policies and procedures at
                      least once every 3 years and to revise them as necessary. However, guidance
                      for fuel cycle facility physical security inspections has not undergone routine
                      review and has not been revised to ensure that the guidance is up to date.
                      Physical security inspectors and headquarters-based NSIR staff said there have
                      been some efforts to revise inspection guidance, but acknowledged that this
                      has not occurred in a systematic way. For example, 9 of 34 of the applicable
                      inspection procedures were issued before 1987 and have not been updated.
                      Moreover, staff recommended that reviews should address content gaps and
                      overlaps among some inspection manual chapters and inspection procedures
                      applicable to the program.

                      Inspection guidance reviews and revisions have not occurred because NRC has
                      not dedicated resources for this work and the agency has reportedly deferred
                      some guidance revision pending an ongoing security rulemaking. As a conse-
                      quence, NRC lacks assurance that physical security inspections are conducted
                      in accordance with current regulations and requirements, which has the poten-
                      tial to compromise the agency’s oversight function. (Addresses
                      Management Challenge #1)



26 | NRC OIG Semiannual Report to Congress
AUDITS IN PROGRESS
Audit of NRC’s Oversight of Irradiator Security
OIG Strategic Goal: Security

Irradiators are devices that expose products, such as food and medical supplies,
to radiation for sterilization and other purposes. Radiation is achieved by the
exposure to extremely hazardous radioactive sources, such as Cobalt-60. NRC has
long participated in efforts to address radioactive source protection and security.
However, the terrorist attacks of September 11, 2001, heightened concerns about
the use of risk-significant radioactive materials in a malevolent act. Any loss of
this material, whether inadvertent or through a deliberate act, may result in signif-
icant adverse impacts that could constitute a threat to the public health and safety
or the common defense and security of the United States.

NRC has enhanced security measures by developing orders requiring
increased security of irradiators and other radiological materials of concern.
These security orders supplement existing regulatory requirements. NRC is
currently in the rulemaking process to adopt the orders into regulation.

The objective of this audit is to determine the adequacy of NRC’s oversight of
industrial irradiator security. (Addresses Management and Performance
Challenge #1)

Audit of NRC’s Non-Concurrence Process
OIG Strategic Goal: Safety

NRC managers and staff have various mechanisms for expressing their views
about agency decisions. The Non-Concurrence Process applies to all docu-
ments undergoing concurrence and applies equally to administrative issues,
policy issues, and technical concerns. The objectives of the Non-Concurrence
Process are to (1) promote discussion and consideration of differing views
on documents in the concurrence process, (2) provide a non-concurrence
option for individuals with concerns about documents in the concurrence
process that they had a role in creating or reviewing, and (3) provide a uniform
approach to processing non-concurrences.

According to a former Executive Director for Operations, “Non-concurrence
should be viewed as a routine option in the NRC’s document concurrence
process. All employees have a responsibility to raise concerns as early as
possible in the document preparation and review process, engage in
discussions and seek solutions before non-concurrences are initiated. The
Non-Concurrence Process is another tool the agency can use to foster an


                                                                     October 1, 2009-March 31, 2010 | 27
                  environment in which the views of all employees are welcome, even when they
                  differ from those of management.”

                  The audit objective is to assess the effectiveness of how NRC dispositions issues
                  objected to through the Non-Concurrence Process. (Addresses Management
                  and Performance Challenge #2)

                  Audit of NRC’s Deployment of the National Source
                  Tracking System
                  OIG Strategic Goal: Security

                  The National Source Tracking System (NSTS) is a data system developed by
                  NRC to monitor licensees’ inventories and transactions of Category 1 and
                  Category 2 radiological sources. NRC deployed NSTS in December 2008, and
                  licensees were required to begin reporting source transactions using NSTS by
                  January 2009. In addition, NRC requires licensees to reconcile their physical
                  inventories with NSTS inventory data on an annual basis. To facilitate public
                  use, NSTS enables licensees to enter source data directly into the system via
                  secure Internet connection. However, an NRC regulatory analysis completed in
                  June 2009 shows that licensees tend to submit source data to NRC by fax. This
                  requires NRC staff and/or contractors to enter source data into NSTS on behalf
                  of licensees, and may increase support costs relative to NRC’s initial projections.

                  NSTS is a congressionally mandated project, and NRC regards it as critical
                  for enhancing accountability of radiological sources that could pose a public
                  health and safety threat if lost or stolen. Moreover, the Commission voted in
                  June 2009 against expanding NSTS to include Category 3 radiological sources
                  pending more information regarding NRC and licensee experience in using
                  NSTS to track Category 1 and Category 2 sources.

                  The audit objective is to determine if NSTS meets its required operational
                  capabilities. (Addresses Management and Performance Challenge #5)

                  Audit of NRC’s Process for Closed Meetings
                  OIG Strategic Goal: Security

                  Nuclear regulation is the public’s business and must be transacted publicly
                  and candidly. The public must be informed about and have the opportunity to
                  participate in the regulatory process as required by law. NRC has long recog-
                  nized the importance and value of public communication and involvement
                  as a cornerstone of fair regulation of the nuclear industry, and the agency has
                  sought to include the public in various ways, including public meetings.



28 | NRC OIG Semiannual Report to Congress
There are times, however, when NRC’s policy dictates that the agency conduct
meetings with licensees that are closed to the public. Meetings are closed when
the discussions include preliminary, pre-decisional, or unverified information.
This policy applies solely to NRC staff-sponsored and staff-conducted meetings
and not to meetings conducted by external organizations. It does not apply to
the Commission or offices that report directly to the Commission or to meet-
ings between NRC staff and State government representatives. It also does not
apply to meetings involving enforcement matters or settlement conferences.

A public perception is that NRC’s process for closed meetings gives licensees
preferential treatment, particularly with regard to release of information. As a
result, it is not always clear that NRC is conducting agency business in a trans-
parent manner.

The audit objective is to determine if NRC’s process for closed meetings
hinders the transparent transaction of nuclear regulation. (Addresses Manage-
ment and Performance Challenge #2)

Audit of NRC’s Vendor Inspection Program
OIG Strategic Goal: Safety

Appendix B to 10 CFR 50 establishes quality assurance requirements for the
design, construction, and operation of structures, systems, and components
that prevent or mitigate the consequences of postulated accidents. (These
requirements are also referenced by 10 CFR 52.) Quality assurance comprises
all activities necessary to provide adequate confidence that a structure, system,
or component will perform satisfactorily in service. Among other things, these
quality assurance activities include design, fabrication, purchasing, storing,
testing, and installation of components.

NRC is responsible for ensuring that suppliers of nuclear safety-related struc-
tures, systems, and components engage in suitable quality assurance activities.
For NRC to ensure that nuclear suppliers maintain adequate quality assurance
programs, it is first necessary to know which domestic and global suppliers are
providing components to licensees, and then it is essential to perform inspec-
tions of their quality assurance programs.

The audit objective is to assess NRC’s regulatory approach for ensuring the
integrity of domestic and global parts and services supplied to nuclear power
reactors. (Addresses Management and Performance Challenge #3)




                                                                  October 1, 2009-March 31, 2010 | 29
                  Audit of NRC’s Management Controls Over the
                  Placement and Monitoring of Work With Department
                  of Energy Laboratories
                  OIG Strategic Goal: Corporate Management

                  During FY 2008 and FY 2009 (as of March 31, 2009), NRC obligated
                  approximately $92 million and $23 million, respectively, for agreements with
                  Department of Energy (DOE) laboratories. MD 11.7, NRC Procedures for
                  Placement of Work With the U.S. Department of Energy, states, “It is the policy
                  of the U.S. Nuclear Regulatory Commission that work placed with the U.S.
                  Department of Energy be managed effectively.”

                  The MD and associated handbook specify the interagency responsibilities,
                  authorities, and procedures for placement and monitoring of work with DOE
                  and its contractors. The objectives of MD 11.7 are to ensure (1) that procedures
                  for negotiating and managing agreements with DOE are consistent with sound
                  business practices and contracting principles; (2) uniform application of an
                  agencywide standard of contract management for projects placed with DOE;
                  and (3) that a framework exists for program management control, administra-
                  tion, monitoring, and closeout of projects placed with DOE.

                  The audit objective is to determine whether NRC has established and
                  implemented an effective system of internal control over the placement
                  and monitoring of work with DOE laboratories. (Addresses Management
                  and Performance Challenge #6)

                  Audit of NRC’s FY 2010 Financial Statements
                  OIG Strategic Goal: Corporate Management

                  Under the Chief Financial Officers Act and the Government Management and
                  Reform Act, the OIG is required to audit the financial statements of the NRC.
                  OIG measures the agency’s improvements by assessing corrective action taken
                  on prior audit findings. The report on the audit of the agency’s financial
                  statements is due on November 15, 2010. In addition, the OIG will issue
                  reports on:

                  • 	 Special Purpose Financial Statements.

                  • 	 Implementation of the Federal Managers’ Financial Integrity Act.

                  • 	 Condensed Financial Statements.




30 | NRC OIG Semiannual Report to Congress
The audit objectives are to:

• 	 Express opinions on the agency’s financial statements and internal controls.

• 	 Review compliance with applicable laws and regulations.

• 	 Review the controls in the NRC’s computer systems that are significant to
    the financial statements.

• 	 Assess the agency’s compliance with OMB Circular A-123, Revised,
    Management’s Responsibility for Internal Control.

(Addresses Management and Performance Challenge #6)

Audit of NRC’s Telework Program
OIG Strategic Goal: Corporate Management

Public Law 106-345, Section 356, states, “Each executive agency shall establish
a policy under which employees of the agency may participate in telecom-
muting to the maximum extent possible without diminishing employee perfor-
mance.” Telework benefits employers and employees through reduced costs
and increased productivity. Telework can also play a critical role in Continuity
of Operations activities. Recent events have necessitated a need for Continuity
of Operations planning. This planning is intended to ensure that essential
functions can continue during and after a disaster. A social benefit is also
gained from telework with the reduction of traffic and pollution. The agency
expects to grow from about 3,600 employees in FY 2008 to more than 4,000 by
FY 2010. This growth will place a premium on office space and equipment.

NRC has a Flexible Workplace Program (Flexiplace) that allows employees in
eligible positions to apply for a fixed-schedule telework arrangement. Under
Flexiplace, employees may work at home or at an offsite location, for up to 3
days per week, with the approval of their office director or regional adminis-
trator. Alternatively, employees can request to participate in Flexiplace under a
project-based schedule.

The audit objectives are to determine (1) if NRC’s telework program complies
with relevant law and OPM guidance, (2) the adequacy of internal controls
associated with the telework program, and (3) NRC’s readiness to have staff
telework under emergency situations. (Addresses Management and
Performance Challenge #7)




                                                                  October 1, 2009-March 31, 2010 | 31
                  Audit of NRC Employee Use of Federal Calling Cards
                  OIG Strategic Goal: Corporate Management

                  NRC costs associated with employee use of Federal Calling cards have
                  increased significantly over the past several years. In FY 2007, 2,354 employees
                  had calling cards, and NRC spent $20,388 for 389,687 minutes of card use. In
                  FY 2008, employee use of the cards increased by about 400 percent over FY
                  2007 levels, with NRC spending $100,490 for 1,793,167 minutes of card use.
                  FY 2009 usage is projected to increase by 30 percent over the FY 2008 level. As
                  of May 2009, the agency had already spent $108,199 for 1,869,708 minutes of
                  use. Currently, it costs about 6 cents a minute to use the cards.

                  NRC guidance on calling card use states that on domestic travel, employees
                  may use the cards for official business calls and for either one 30-minute phone
                  call home or two 10-minute phone calls home per day. For foreign travel, NRC
                  permits one 5-minute call home three times within a 7-day period.

                  A recent audit at the Internal Revenue Service found a lack of controls over
                  calling card use and identified excessive spending on international calls and in
                  connection with teleconferences.

                  The audit objective is to determine whether NRC has established and imple-
                  mented an effective system of internal control over the use of Federal calling
                  cards. (Addresses Management and Performance Challenge #6)




32 | NRC OIG Semiannual Report to Congress
Investigations
During this reporting period, OIG received 100 allegations, initiated 19 inves-
tigations, and closed 17 cases. In addition, the OIG made 20 referrals to NRC
management and 8 to the Department of Justice.

INVESTIGATIVE CASE SUMMARIES
Patients’ Rights Advocate
OIG Strategic Goal: Corporate Management

OIG conducted an investigation based on a letter from a former NRC
employee to the NRC Commission regarding the February 2007 appoint-
ment of an individual to serve as the Patients’ Right Advocate to the Advisory
Committee on the Medical Uses of Isotopes (ACMUI). The ACMUI was estab-
lished in 1958 and advises the NRC on policy and technical issues related to
the regulation of the medical use of radioactive material. The letter from the
former NRC employee alleged that the NRC staff forwarded the individual’s
name to the Commission for approval without conveying certain information
that would have demonstrated that the individual recommended was not an
appropriate choice for the Patients’ Right Advocate position. Specifically, the
former NRC employee maintained that (1) NRC staff concealed that the indi-
vidual recommended for the ACMUI Patients’ Right Advocate was a senior
DOE official, and (2) a NRC press release announcing the appointment of the
Patients’ Right Advocate cited this individual’s involvement in the American
Association of Cancer Patients, which was a fictitious organization.

This investigation determined that the NRC selected the individual for the
Patients’ Right Advocate in February 2007 based on his experience with
patient rights and counseling and his experience as a health physicist. The indi-
vidual’s career achievements were reviewed by an NRC screening panel, which
determined that he was the most qualified applicant for the position before
forwarding the individual’s name to the Commission for review. OIG found
that these actions were in accordance with NRC’s process for selecting ACMUI
members.

This investigation also determined that the individual selected for the Patients’
Right Advocate in February 2007 was not a senior DOE official, but at the time
of his appointment had been employed as a contactor for a DOE national labo-
ratory since 1978. OIG also determined that an NRC press release incorrectly
referred to the American Association of Cancer Patients instead of another
patient advocacy organization with a similar name. (Addresses Management
and Performance Challenge #7)



                                                                   October 1, 2009-March 31, 2010 | 33
                     ADAMS Citrix Intrusion
                     OIG Strategic Goal: Security

                     OIG’s Computer Crimes Unit (CCU) conducted an investigation into an alle-
                     gation from the NRC Computer Security Office (CSO) of an attempted intru-
                     sion of the Agencywide Documents Access Management System (ADAMS)
                     Citrix server when antivirus software located password-cracking software on
                     the system. ADAMS is an information system that provides access to all image
                     and text documents that the NRC has made public since November 1, 1999, as
                     well as bibliographic records (some with abstracts and full text) that the NRC
                     made public before November 1999.

                     The OIG CCU forensically reviewed the server and no pertinent information
                     was found for the reported password cracking software because the antivirus
                     software quarantined and removed it. Additional investigative analysis of
                     the server revealed that a different password cracking software program had
                     also been placed on the Citrix system. The CCU identified Internet Protocol
                     addresses connected to the Citrix server when the malicious software was
                     uploaded. The CCU was unable to determine the identity of the individual(s)
                     who placed the malicious software on the Citrix server because it appeared the
                     network intruders masked their identities by surreptitiously taking control of
                     another individual’s computer. (Addresses Management and Performance
                     Challenge #6)

                     Spear Phishing Attack on NRC
                     OIG Strategic Goal: Security

                     OIG’s CCU conducted an investigation into an allegation from the NRC CSO
                     of a spear phishing attack in which 17 NRC computer users were targeted.
                                                    The e-mail address was similar to the name of
                                                    an NRC employee. OIG CCU found that this
                                                    spear phishing attack originated from an over-
                                                    seas location. The individuals involved gained
                                                    access through an insecure auto parts store’s
                                                    server and utilized it to open a Yahoo! e-mail
                                                    account using the name of an NRC employee.
                                                    This e-mail account was then used to send spear
                                                    phishing e-mails to members of the NRC staff,
                                                    triggering the download of the malicious soft-
                                                    ware. (Addresses Management and Performance
                                                    Challenge #6)
Photo illustration of digitized lock with binary code
and circuit board.


34 | NRC OIG Semiannual Report to Congress
NRC Response to H&I Complaint
OIG Strategic Goal: Safety

OIG completed an investigation concerning a former licensee employee’s
harassment and intimidation (H&I) complaint against the individual’s former
employer. The individual raised the concern to NRC’s OI, which closed
the investigation after the individual reached a settlement with the former
employer. The alleger maintained that OI should not have closed the case, but
should have continued its investigation into the H&I complaint against the
licensee company.

OIG learned that the former licensee employee raised the H&I complaint
to OI after choosing not to follow NRC’s Alternative Dispute Resolution
(ADR) process to pursue the matter. ADR is a term that refers to a number of
processes, such as mediation and facilitated dialogue, which can be used to
assist parties in resolving disputes.

After the individual raised the H&I complaint to OI, that office opened
an investigation and attempted to interview the individual concerning the
complaint. However, before OI investigators had the opportunity to interview
the individual, OI was notified that a settlement agreement had been reached
between the parties and that NRC had reviewed the agreement and found it
acceptable. OI subsequently closed the investigation on the basis that a settle-
ment agreement had been reached and no further investigation was warranted.

After OI decided to close the case with no further investigation, NRC sent
two letters to the individual with explanations concerning the rationale for
closing the OI case. One letter, from NRC’s Office of Enforcement, stated that
“although the settlement was reached outside of NRC’s ADR process, we can
accept such settlements in lieu of an OI investigation per NRC policy.” The
second letter, sent by the Office of Nuclear Reactor Regulation, stated that
“NRC’s policy regarding ADR is such that if the parties agree to mediate a
discrimination complaint and reach settlement through that process, whether
ADR or through some other process, the NRC will not initiate an investigation
into the complaint.” While both letters suggested that OI would not conduct
a case if a settlement was reached via ADR, these explanations did not seem
entirely applicable because OI had already opened its investigation into the
H&I matter.

OIG reviewed OI’s investigative procedures manual and interviewed a senior
OI official to ascertain why OI closed the case. The senior official explained
that while OI assigned the H&I allegation a case number, the office never




                                                                 October 1, 2009-March 31, 2010 | 35
                  “initiated” an investigation because the preliminary interview with the alleger
                  never occurred due to delays on the alleger’s side. The OI official said that if
                  OI had conducted a preliminary interview on the record and NRC’s attorneys
                  determined there was prima facie evidence regarding the allegation, then OI
                  would have continued the investigation even if a settlement were reached.

                  Based on the details of this case, NRC officials agreed that the initial letter sent
                  to allegers should better articulate the relationship between settlement of alle-
                  gations and OI involvement in a case. Agency officials said that as a result of
                  the agency’s experience with this matter, they will be including more concise
                  language in their ADR letter sent to allegers. (Addresses Management and
                  Performance Challenge #1)

                  NRC Oversight of Nuclear Fuel Services
                  OIG Strategic Goal: Safety

                  OIG conducted an investigation involving six separate allegations concerning
                  NRC’s oversight of NFS, an NRC licensee located in Erwin, Tennessee, that
                  manufactures and processes nuclear reactor fuel for commercial purposes and
                  for the military. The allegations were conveyed from concerned individuals to
                  OIG during a series of meetings.

                  Three of the allegations challenged whether NRC followed its own rules and
                  policies with regard to approval of an NFS license amendment, withholding of
                  information to the public, and handling of an allegation against a senior NFS
                  official. Each of these three allegations had been investigated and substantiated
                  by OIG prior to being raised by concerned individuals during the OIG meet-
                  ings. In the first case, OIG found that NRC approved a license amendment
                  before the deadline for public comment. However, an agency official explained
                  that in accordance with the Atomic Energy Act, the adjudication process is
                  separate from the regulatory review process. Therefore, the official said, NRC
                  may issue a licensing action prior to the expiration of the public comment
                  period because the agency can later rescind its licensing actions as a result of
                  adjudication action. In the second case, OIG found that the agency misapplied
                  its June 2004 policy to withhold from the public all information on Depart-
                  ment of Energy naval reactor activities involving NFS. The June 2004 policy
                  directed NRC staff to designate all future correspondence with NFS related to
                  the naval reactor programs as Official Use Only and withhold it from public
                  disclosure. OIG found that instead of withholding only the naval reactor-
                  related information, NRC withheld information on all activities, regardless of
                  whether the information related to naval reactor or commercial operations. In




36 | NRC OIG Semiannual Report to Congress
September 2007, NRC placed all previously withheld documents on the NRC
public Web site for 60 days. In the third case, OIG found that in March 2006,
NRC Region II improperly referred to the licensee an allegation that a senior
NFS official attended a force-on-force exercise under the influence of alcohol.
NRC allegation guidance states that an allegation should not be referred to a
licensee if it is made against the licensee’s management or those parties who
would normally receive and address the allegation. This referral was not in
accordance with agency guidance because the subject was a licensee high-level
management official and was typically responsible for receiving and handling
NRC allegation referrals.

The remaining three NFS-related allegations raised by concerned individuals
were not substantiated by OIG. One, addressed in a previous OIG case,
alleged that the Department of Health and Human Services Agency for Toxic
Substances and Disease Registry (ATSDR) was influenced by NRC to find
that the NFS facility was not a significant health hazard. ATSDR conducts
public health assessments of sites on the Environmental Protection Agency’s
National Priorities List to determine if people are being exposed to hazardous
substances. ATSDR assessed NFS and ranked the site as “No apparent health
hazard.” OIG learned that when NRC Region II was informed of ATSDR’s
intent to assess NFS, Region II offered its assistance. However, ATSDR did not
accept any input or assistance from NRC in its assessment of NFS. The second
allegation, also addressed in a previous OIG case, stated that an NRC inspector
at NFS was reassigned because he pursued his NRC assignment with too
much rigor. OIG learned that, in fact, the inspector left the NFS position after
applying for and receiving a promotion to another NRC position.

The third unsubstantiated allegation pertained to NRC’s enforcement of a 2007
confirmatory order that required NFS to undertake an independent review of
its safety culture. OIG learned that by January 2010, NRC had completed four
performance reviews at NFS, the last of which had been conducted in August
2009. In these assessments, NRC staff noted that NFS continued to implement
its safety culture improvement plan. (Addresses Management and Performance
Challenges #1 and #2)




                                                                 October 1, 2009-March 31, 2010 | 37
Summary of OIG Accomplishments
        INVESTIGATIVE STATISTICS
        Source of Allegations — October 1, 2009, through March 31, 2010
                      NRC Employee                                                              22

                  NRC Management                3
        Other Government Agency                 3

                          Intervenor                        6

                      General Public                                                           20
            OIG Investigation/Audit                 4
                 Regulated Industry                     5
                        Anonymous                                                                     26
                         OIG Project                        7

                          Contractor                4

                                        Allegations resulting from Hotline calls: 55

                                                                                   Total 100


        Disposition of Allegations — October 1, 2009, through March 31, 2010
                                             Total                                              100

                          Closed Administratively                             38

                  Referred for OIG Investigation                         19
        Referred to NRC Management and Staff                             20

                          Pending Review Action                     12
                      Correlated to Existing Case               6

                       Allegations Under Review             5




38 | NRC OIG Semiannual Report to Congress
Status of Investigations
DOJ Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
NRC Administrative Actions:
	 Terminations and Resignations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
	 Suspensions and Demotions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
	 Counseling .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
	 Other .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2


Summary of Investigations
Classification of 		           Opened 	 Closed 	 Cases In
Investigations	     Carryover	 Cases	   Cases	 Progress

Conflict of Interest	                  1	                                         0	              0	              1
External Fraud	                        4	                                         1	              0	              5
False Statements 	                     0	                                         1	              0	              1
Misuse of Government Property	         2	                                         1	              2	              1
Employee Misconduct 	                 10	                                         9	              2	             17
Management Misconduct	                 2	                                         3	              0	              5
Mishandling of Technical Allegations	 7	                                          0	              3	              4
Whistleblower Reprisal	                3	                                         0	              2	              1
Proactive Initiatives 	                2	                                         1	              1	              2
Miscellaneous	                         3	                                         0	              3	              0
Technical Allegations	                 3	                                         0	              2	              1
Projects	                              7	                                         3	              2	              8
Management Implication Report	         1	                                         0	              0	              1
Event Inquiries	                       2	                                         0	              0	              2
			 Total Investigations	             47	                                        19	             17	             49




                                                                                                       October 1, 2009-March 31, 2010 | 39
                  AUDIT LISTINGS
                  Internal Program Audit and Special Evaluation Reports
                  Date	         Title	                                         Audit Number
                  11/03/2009	 Audit of NRC’s Physical Security Inspection
                  	           Program for Category 1 Fuel Cycle Facilities	    OIG-10-A-01
                  11/10/2009	 Results of the Audit of the United States Nuclear
                  	           Regulatory Commission’s Financial Statements for
                  	           Fiscal Years 2009 and 2008 	                      OIG-10-A-05
                  11/16/2009	 Audit of NRC’s Quality Assurance Planning for
                  	           New Reactors	                                    OIG-10-A-02
                  11/16/2009	   Independent Auditor’s Report on the U.S. Nuclear
                  	             Regulatory Commission’s Special Purpose Financial
                  	             Statements as of September 30, 2008, and for the
                  	             Years Then Ended	                                OIG-10-A-06
                  11/17/2009	 Memorandum Report: Audit of NRC’s
                  	           Management Directive 6.8, Lessons Learned
                  	           Program	                                         OIG- 10-A-03
                  11/17/2009	 Independent Evaluation of NRC’s Implementation
                  	           of the Federal Information Security Management
                  	           Act for Fiscal Year 2009	                      OIG-10-A-04
                  01/14/2010	 Independent Auditor’s Report on the Condensed
                  	           Financial Statements	                         OIG-10-A-07
                  01/22/2010	 Audit of NRC’s Use of Electronic Submissions for
                  	           Combined License Applications	                   OIG-10-A-08
                  02/23/2010	 Audit of NRC’s Personnel Security Clearance
                  	           Program for Employees 	                          OIG-10-A-09
                  03/11/2010	 Memorandum Report: Review of Implementation
                  	           of the Federal Managers’ Financial Integrity Act
                  	           for Fiscal Year 2009-March 11, 2010	             OIG-10-A-10
                  03/16/2010	 Social Engineering Assessment Report–	           OIG-10-A-11
                  	           Official Use Only–Security Related Information




40 | NRC OIG Semiannual Report to Congress
Contract Audit Reports
OIG	          Contractor/	                Questioned	   Unsupported
Issue Date	   Contract Number	              Costs	         Costs

03/31/10	     Dade Moeller & Associates
	             NRC-04-07-112	                  0	               0




                                                        October 1, 2009-March 31, 2010 | 41
    Audit Resolution Activities
TABLE I
OIG Reports Containing Questioned Costs5
October 1, 2009, through March 31, 2010
		                                                                                           Questioned	        Unsupported
	        Number of	                                                                             Costs	             Costs
Reports	  Reports	                                                                            (Dollars)	         (Dollars)

A.	       For which no management decision
          had been made by the commencement
          of the reporting period	                                         0	                        0	              0

B.	       Which were issued during the
          reporting period	                                                0	                        0	              0

	         Subtotal (A + B)	                                                0	                        0	              0

C.	       For which a management decision was
          made during the reporting period:

	         (i) 	 dollar value of disallowed costs	                          0	                        0	              0

	         (ii)	 dollar value of costs not disallowed	                      0	                        0	              0

D.	       For which no management decision
          had been made by the end of the
          reporting period	                                                0	                        0	              0

E.	       For which no management decision was
          made within 6 months of issuance	                                0	                        0	              0


5
     uestioned costs are costs that are questioned by the OIG because of an alleged violation of a provision
    Q
    of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing
    the expenditure of funds; a finding that, at the time of the audit, such costs are not supported by
    adequate documentation; or a finding that the expenditure of funds for the intended purpose is unnec-
    essary or unreasonable.




42 | NRC OIG Semiannual Report to Congress
TABLE II
OIG Reports Issued with Recommendations That Funds Be Put
to Better Use6
	                                                                          Number of	            Dollar Value
Reports	                                                                    Reports	              of Funds

A.	       For which no management decision	 0	 0
          had been made by the commencement
          of the reporting period			

B.	       Which were issued during the 	 0	                                                              0
          reporting period		

C.	       For which a management decision was	
          made during the reporting period:		

	             (i) 	 dollar value of recommendations	                             0	                      0
          	         that were agreed to by management

	          (ii) 	dollar value of recommendations 	                               0	                      0
           	 that were not agreed to by management

D.	       For which no management decision had	                                  0	                      0
          been made by the end of the reporting
          period

E.	       For which no management decision was	 0	 0
          made within 6 months of issuance			
          	

6
    A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could
      be used more efficiently if NRC management took actions to implement and complete the recommenda-
      tion, including: reductions in outlays; deobligation of funds from programs or operations; withdrawal
      of interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by imple-
      menting recommended improvements related to the operations of NRC, a contractor, or a grantee;
      avoidance of unnecessary expenditures noted in preaward reviews of contract or grant agreements; or
      any other savings which are specifically identified.




                                                                                         October 1, 2009-March 31, 2010 | 43
TABLE III
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	       Report Title	                                                  Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	             OIG-03-A-15
	           Nuclear Materials

	           Recommendation 1: Conduct periodic inspections to
	           verify that material licensees comply with material
	           control and accountability (MC&A) requirements,
	           including, but not limited to, visual inspections of
	           licensees’ special nuclear material (SNM) inventories
	           and validation of reported information.		

09/26/06	   Evaluation of NRC’s Use of Probabilistic Risk Assessment 	   OIG-06-A-24
	           in Regulating the Commercial Nuclear Power Industry

	           Recommendation 3: Conduct a full verification and
	           validation of SAPHIRE version 7.2 and GEM.

09/06/07	   Audit of NRC’s License Renewal Program 	                     OIG-07-A-15

	           Recommendation 7: Establish a review process to
	           determine whether or not Interim Staff Guidance meets
	           the provisions of 10 CFR 54.37(b), and document accordingly.




44 | NRC OIG Semiannual Report to Congress
Abbreviations and Acronyms
ACMUI	   Advisory Committee on the Medical Uses of Isotopes
ADAMS	   Agencywide Documents Access and Management System
ADR	     Alternative Dispute Resolution
ATSDR	   Agency for Toxic Substances and Disease Registry
CCU	     Computer Crimes Unit (OIG)
CFR	     Code of Federal Regulations
CIGIE	   Council of Inspectors General for Integrity and Efficiency
CSO	     Computer Security Office (NRC)
DOE	     U.S. Department of Energy
EDO	     Executive Director for Operations
FCA	     False Claims Act
FISMA	   Federal Information Security Management Act
FY	      fiscal year
H&I	     harassment and intimidation
IAM	     Issue Area Monitor
IG	      Inspector General
IMPEP	   Integrated Materials Performance Evaluation Program
MD	      Management Directive
NFS	     Nuclear Fuel Services, Inc.
NMED	    Nuclear Material Events Database
NR	      naval reactor
NRC 	    U.S. Nuclear Regulatory Commission
NRO	     Office of New Reactors (NRC)
NRR	     Office of Nuclear Reactor Regulation (NRC)
NSIR	    Office of Nuclear Security and Incident Response (NRC)
NSTS	    National Source Tracking System
OGC	     Office of the General Counsel (NRC)
OI	      Office of Investigations (NRC)
OIG 	    Office of the Inspector General (NRC)
OMB	     Office of Management and Budget
OPM	     Office of Personnel Management
PII	     personally identifiable information
PSB	     Personnel Security Branch (NRC)
SAIC	    Science Application International Corporation
SBCR	    Office of Small Business and Civil Rights
SSA	     Senior Special Agent



                                                            October 1, 2009-March 31, 2010 | 45
Reporting Requirements
                  The Inspector General Act of 1978, as amended, specifies reporting require-
                  ments for semiannual reports. This index cross-references those requirements
                  to the applicable pages where they are fulfilled in this report.


                  Citation	               Reporting Requirements	                                                  Page

                  Section 4(a)(2) Review of Legislation and Regulations..................................... 6-9

                  Section 5(a)(1) Significant Problems, Abuses, and Deficiencies.......14-26, 33-37

                  Section 5(a)(2) Recommendations for Corrective Action.............................14-26

                  Section 5(a)(3) Prior Significant Recommendations Not Yet Completed........ 44

                  Section 5(a)(4) Matters Referred to Prosecutive Authorities............................. 39

                  Section 5(a)(5) Information or Assistance Refused........................................ None

                  Section 5(a)(6) Listing of Audit Reports............................................................... 40

                  Section 5(a)(7) Summary of Significant Reports................................14-26, 33-37

                  Section 5(a)(8) Audit Reports — Questioned Costs........................................... 42

                  Section 5(a)(9) Audit Reports — Funds Put to Better Use................................. 43

                  Section 5(a)(10) Audit Reports Issued Before Commencement of the
                  	                 Reporting Period for Which No Management
                  	                 Decision Has Been Made.................................................... None

                  Section 5(a)(11) Significant Revised Management Decisions....................... None

                  Section 5(a)(12) Significant Management Decisions With Which
                  	                 the OIG Disagreed............................................................... None




46 | NRC OIG Semiannual Report to Congress
NRC OIG’s STRATEGIC GOALS
1. S
    trengthen NRC’s efforts to protect public health and safety
   and the environment.
2. E nhance NRC’s efforts to increase security in response to an
    evolving threat environment.
3. I ncrease the economy, efficiency, and effectiveness with
    which NRC manages and exercises stewardship over its
    resources.
               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities        • Abuse of Authority
• Conflicts of Interest                          • Misuse of Government Credit Card
• Theft and Misuse of Property                   • Time and Attendance Abuse
• Travel Fraud                                   • Misuse of Information Technology Resources
• Misconduct                                     • Program Mismanagement


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  On-Line Form
                                  www.nrc.gov
                                  Click on Inspector General
                                  Click on OIG Hotline



                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  Office of the Inspector General
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 22, No. 2
March 2010
